September 30, 2008

MICHAEL J. DALEY
VICE PRESIDENT, PACIFIC AREA OPERATIONS

SUBJECT: Audit Report – Vehicle Maintenance Facilities – Scheduled Maintenance
         Service in the Pacific Area (Report Number DR-AR-08-010)

This report presents the results of our self-initiated audit, Vehicle Maintenance Facilities
(VMF) – Scheduled Maintenance Service in the Pacific Area (Project Number
07XG044DR000). The overall objectives were to assess whether the Pacific Area
accomplished all required vehicle scheduled maintenance and whether they integrated
both VMFs and local commercial resources for optimum efficiency. Click here to go to
Appendix A for additional information about this audit.

Conclusion

The Pacific Area completed nearly all required Scheduled Preventive Maintenance
(SPM)1 during fiscal year (FY) 2007. However, we found that management could
further optimize resources by more efficiently using VMF and commercial resources.
Better optimizing its resources could save the Pacific Area an estimated $21 million
over 10 years.

Scheduled Maintenance Performance

Pacific Area VMF units and local commercial vendors (LCVs) completed 99 percent of
required SPMs. Five VMF units completed all of the SPMs. The other three VMF units
ranged between 97 and 99 percent of the required SPMs because there was:

    •   A shortage of maintenance staff.

    •   SPMs not completed were not recorded and tracked as maintenance in arrears.

Without completing all required scheduled maintenance and repairs, the U.S. Postal
Service vehicles are vulnerable to breakdowns, which could adversely impact timely
mail delivery and potentially impact the well-being of employees and the public. Since
the Postal Service does not plan to begin replacing its current fleet of long life vehicles
(vehicles that are more than 20 years old) until 2018, we believe it is critical that these

1
 An SPM usually includes a preventive maintenance inspection and any repairs needed to maintain the vehicle or
meet safety and reliability standards.
Vehicle Maintenance Facilities – Scheduled Maintenance Service                                 DR-AR-08-010
 in the Pacific Area


vehicles receive SPMs in a timely manner. Click here to go to Appendix B for additional
information about this topic.

We recommend the Vice President, Pacific Area Operations, direct district managers to:

       1. Assess vehicle maintenance technician positions at individual vehicle
          maintenance facilities to ensure sufficient staff is available for maintenance
          service.

       2. Record and track key maintenance activities to ensure timely completion of all
          required scheduled maintenance and repairs.

       3. Require vehicle maintenance facility officials to immediately conduct all
          maintenance in arrears and properly record vehicle status if maintenance was
          not conducted.

Optimum Use of Resources

The Pacific Area did not always optimize its resources to ensure that maintenance and
repair funds were expended in the most efficient and cost effective manner.
Specifically, maintenance officials often used local commercial vendors (LCV) for
vehicle maintenance and repairs when using VMF resources would have been more
efficient and economical. Likewise, VMF resources were sometimes used when LCVs
would have been more efficient and economical. Additionally, VMF officials primarily
used maintenance employees to shuttle vehicles between facilities for maintenance and
repairs when more economical means existed.

The following factors contributed to these conditions. Although VMF units had a vehicle
maintenance plan, it did not fully consider:

       •   The optimal combination of VMF resources and LCVs for performing scheduled
           maintenance and repairs.

       •   The cost effectiveness of using LCVs instead of VMF resources to shuttle
           vehicles between facilities for maintenance and repairs.

In addition, area officials’ oversight was not effective in managing vehicle maintenance
programs because they did not have sufficient performance data. We also found the
vehicle maintenance organizational structure was not conducive for the most effective
program management.2 Click here to go to Appendix C for additional information on
optimum use of resources.

As a result, the Pacific Area expended more resources than necessary to complete
vehicle maintenance and repairs. By optimizing its resources, the Pacific Area could
reduce operating costs by about $2.1 million annually, or approximately $21.5 million
2
    This issue requires action by Postal Service Headquarters and will be addressed in a national capping report.


                                                            2
Vehicle Maintenance Facilities – Scheduled Maintenance Service          DR-AR-08-010
 in the Pacific Area


projected over 10 years for the 18 VMFs in the Pacific Area. Click here to go to
Appendix D for our detailed analysis of monetary impact.

We recommend the Vice President, Pacific Area Operations, direct district managers to:

    4. Work with vehicle maintenance facility officials to:

            o Maintain the most efficient combination of vehicle maintenance facility and
              commercial resources based on geographical location and costs.

            o Make optimal use of the Postal Service’s national vehicle shuttle
              agreement or other local commercial shuttle services, when cost effective,
              for transporting vehicles to and from maintenance facilities.

Management’s Comments

Pacific Area management agreed with our findings and recommendations. For
Recommendation 1, management reviewed the vehicle maintenance positions at
individual vehicle maintenance facilities and determined that the staffing was sufficient
to complete required maintenance service. In response to recommendations 2 and 3,
management stated they will evaluate the new headquarters tracking system to
determine if they can use it in the future to ensure timely completion and recording of
maintenance activities and vehicle maintenance status. Pacific Area officials stated
they will work with VMF officials to optimize resources to ensure that maintenance and
repair funds are allocated in the most efficient and cost effective manner. Management
stated they could not commit to the actual dollar savings amounts specified in the audit
report. However, management agreed in principle with the monetary impact and will
pursue capturing savings through improved efficiencies as they implement the
recommendations. We have included management’s comments, in their entirety, in
Appendix G.

Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General (OIG) considers management’s
comments responsive to the recommendations, and the corrective actions should
resolve the issues identified in the report.

The OIG considers recommendation 4 significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
management completes corrective actions. These recommendations should not be
closed in the follow-up tracking system until the OIG provides written confirmation the
recommendation can be closed. We will report $21,580,236 of funds put to better use
in our Semiannual Report to Congress.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Rita Oliver, Director, Delivery,
or me at 703-248-2100.


                                                   3
Vehicle Maintenance Facilities – Scheduled Maintenance Service   DR-AR-08-010
 in the Pacific Area


     E-Signed by Robert Batta
 VERIFY authenticity with ApproveIt




Robert J. Batta
Deputy Assistant Inspector General
 for Mission Operations


Attachments


cc: Patrick R. Donahoe
    William P. Galligan
    Anthony Pajunas
    Jordan Small
    Wayne W. Corey
    Marlon J. Caldwell
    Kim R. Fernandez
    Rosemarie Fernandez
    John E. Platt
    Gerard K. Ahern
    James K. Land
    Drew T. Aliperto
    Katherine S. Banks




                                                   4
Vehicle Maintenance Facilities – Scheduled Maintenance Service          DR-AR-08-010
 in the Pacific Area


                            APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

The Postal Service invested more than $3 billion in vehicle assets for the purpose of
transporting and delivering the mail. The vehicle inventory consists of 219,522 delivery,
transport, and administrative vehicles. Delivery and collection vehicles (see the
examples in Figure 1) account for 195,211 or about 89 percent of the total fleet. The
Postal Service acquired the majority of these vehicles between 1987 and 1994 and
planned to maintain them for 24 years. About 7,700 of these vehicles purchased in
1987 are approaching the end of their useful life. However, the Postal Service recently
stated that capital constraints now dictate that many of these vehicles must stay in
service until 2018 - 7 years more than the planned lifespan.

                                           Figure 1
                     Delivery and Collection Vehicles in VMFs for SPM




                 Source: Postal Service

Management established 190 main and 131 auxiliary VMFs to maintain these assets in
a technically reliable, safe, clean, and neat condition for efficient mail transportation.
Vehicle maintenance includes selecting and training maintenance technicians; providing
garages, tools, and equipment; performing repairs; and monitoring and maintaining
preventive maintenance standards. The geographic location of VMFs and auxiliary
VMFs varies in each area as needed to support vehicle maintenance and reduce
transportation costs. Auxiliary VMFs were established for situations where vehicle
maintenance requirements exceed VMF resources or when shuttle time or geographical
distances warrant the use of an auxiliary VMF.

Area officials are responsible for validating staffing requirements for vehicle-related
positions and ensuring an adequate scheduled maintenance program. Vehicle
maintenance managers have overall responsibility for oversight of all maintenance and
repair services performed at VMF units, as well as any work contracted to commercial
vendors. Although the VMF manager has overall responsibility for vehicle maintenance,
vehicles are usually assigned to a vehicle post office (VPO). VPOs can be post offices,
branches, stations, associated offices, or other delivery and support facilities. Officials
at VPOs can also contract with LCVs for maintenance and repair services, but they are




                                                   5
Vehicle Maintenance Facilities – Scheduled Maintenance Service                     DR-AR-08-010
 in the Pacific Area


required to document the repairs and obtain the VMF manager’s approval for repairs
and services costing more than $250.

The Postal Service developed Handbook PO-701, Fleet Management, to assist
operating personnel in maintaining the vehicle fleet in the most economical manner
possible. The handbook requires a maintenance plan that provides for regular
examination and service of Postal Service-owned vehicles. VMF managers must
prepare a vehicle maintenance plan designating where and when each vehicle will
receive scheduled maintenance. The handbook also emphasizes preventive or
scheduled maintenance over reactive or unscheduled maintenance. (See Appendix F,
“Scheduled Maintenance Process,” for a flowchart.)

The Postal Service also established a Model Vehicle Maintenance Facility Performance
Review program. The review program is an integral part of VMF operations, and is a
key tool for determining the efficiency of a unit at a given time for identifying areas that
need corrective action. Districts must ensure that self-reviews are performed in all
VMFs on a quarterly basis. A VMF must achieve a score of 85 or more to be certified.
The area must certify or recertify each unit at least every 3 years.

The Postal Service uses the Vehicle Management Accounting System (VMAS) to code
and track costs. VMAS is a computer-based support system designed to collect,
process, store, present, and communicate vehicle maintenance data. The table below
shows VMF expenses, including commercial vendors’ expenses, for FY 2007.

                  Table 1. Maintenance Expenditures for FY 2007 by Area

                                             VMF and Commercial Expenditures
                                            Commercial
                                              Vendor           VMF            Total
                  Postal Service Area of    Expenses in     Expenses in    Expenses in
                        Operation             FY 2007         FY 2007        FY 2007
                 Southeast                   $13,867,484    $52,648,111    $66,515,595
                 Great Lakes                  15,152,866     46,536,525     61,689,391
                 Eastern                      12,213,149     45,085,152     57,298,301
                 Pacific                      10,382,055     45,808,493     56,190,548
                 Pacific                       9,105,547     42,819,217     51,924,764
                 Northeast                    10,821,346     37,860,317     48,681,663
                 New York Metro               12,433,942     36,814,803     49,248,745
                 Southwest                     7,194,386     36,503,347     43,697,733
                 Capital Metro                 7,643,667     32,808,458     40,452,125
                 Total                        $98,814,442   $376,884,423   $475,698,865
                Source: Postal Service Category Management Center




                                                   6
Vehicle Maintenance Facilities – Scheduled Maintenance Service                          DR-AR-08-010
 in the Pacific Area



OBJECTIVES, SCOPE AND METHODOLOGY

The objectives of this audit were to assess whether the Pacific Area accomplished all
required scheduled maintenance and whether they integrated both VMFs and local
commercial resources for optimum efficiency.

To accomplish the objectives, we randomly selected and reviewed vehicle service files
from 10 of the 18 VMFs in the Pacific Area. We documented the scheduled
maintenance and number of SPMs required and whether they were conducted in a
timely manner, and reviewed work order files to document whether SPMs performed
were considered actual SPMs, based on the time required for maintenance. We
reviewed the Web-Enabled Enterprise Information System (WebEIS) to analyze
vehicles in “maintenance in arrears” status, and compared the number of SPMs
completed to actual maintenance records.

We obtained a random sample of 10 of the Pacific Area's VMFs from all districts, and
reviewed FY 2007 VMAS data for scheduled maintenance services for eight3 of the 10.
(See Appendix E.) We identified the number of Preventive Maintenance Inspections
(PMI)4 to be performed at each auxiliary VMF, the VPOs where the vehicles were
located, and the VPOs’ distance from the VMFs, and documented the number of vehicle
maintenance technicians assigned to each VMF.

We identified each VMF’s expenditures and LCVs’ expenditures for scheduled
maintenance. In discussions with VMF managers and reviews of maintenance records,
we documented the number of SPMs and SPM inspections required for each location
on a yearly basis. Using the VMAS vehicle work order history, we analyzed the average
time to perform a SPM for the eight units reviewed in our sample.

We developed an optimization model that used the above operational data to establish
a baseline, standards, key characteristics, shuttle usage and cost. Using this data, we
established an optimum operating efficiency for each VMF. Based on the above
analyses, assumptions, and constraints, we estimated that the Pacific Area could
increase overall VMF efficiency, and we projected the cost savings for the Pacific Area’s
universe of 18 VMFs. Click here to go to Appendix D for the model and assumptions
we used to compute monetary benefits.

We conducted this performance audit from September 2007 through September 2008 in
accordance with generally accepted government auditing standards and included such
tests of internal controls that we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe the evidence obtained provides a reasonable basis for our
3
  The random sample was reduced from 10 to eight because we excluded the Los Angeles and Santa Barbara VMFs
due to the difficulty in verifying SPMs.
4
  A PMI is that portion of required scheduled maintenance a vehicle must receive to determine if mechanical and
safety systems are functioning properly.


                                                       7
Vehicle Maintenance Facilities – Scheduled Maintenance Service              DR-AR-08-010
 in the Pacific Area


findings and conclusions based on our audit objectives. We relied on data from VMAS
and WebEIS. We did not audit these systems, but performed a limited review of data
integrity to support our reliance on the data. We discussed our observations and
conclusions with management officials on August 13, 2008, and included their
comments where appropriate.

PRIOR AUDIT COVERAGE

As shown in the table below, the OIG issued six reports related to our objective in the
last several years.


                                   Report
        Report Title              Number                Final Report Date   Monetary Impact
  Vehicle Maintenance           DR-AR-08-009           September 29, 2008     $28,224,843
  Facilities – Scheduled
  Maintenance Service
  in the Great Lakes
  Area
  Vehicle Maintenance           DR-AR-08-008           September 29, 2008     $14,251,384
  Facilities – Scheduled
  Maintenance Service
  in the Western Area
  Vehicle Maintenance           DR-AR-08-007           September 16, 2008     $27,620,773
  Facilities – Scheduled
  Maintenance Service
  in the Southeast Area
  Vehicle Maintenance           DR-AR-08-006           August 14, 2008        $34,522,159
  Facilities – Scheduled
  Maintenance Service
  in the Southwest Area
  Maintenance and               DR-MA-07-005           September 21, 2007     $1,571,517
  Repair Payments to
  Commercial Vendors
  Using Postal Service
  Form 8230,
  Authorization for
  Payment
  Management of                 DR-AR-06-005           June 14, 2006          $22,796,487
  Delivery Vehicle
  Utilization

The previous 2008 audits, like this one of the Pacific Area, are part of a series of audits
on this topic. Like these audits, the Pacific Area did not complete SPMs on all vehicles,



                                                   8
Vehicle Maintenance Facilities – Scheduled Maintenance Service        DR-AR-08-010
 in the Pacific Area


and did not always integrate both VMF and LCV resources for optimum efficiency.
Management agreed with our findings, recommendations, and in principle with the
monetary impacts.

The 2007 audit concluded that using the Postal Service (PS) Form 8230, Authorization
for Payment, process to pay commercial vendors for maintenance and repair services
was not cost effective and did not include controls to reconcile payments and ensure
repair costs were reasonable. Management agreed with our findings,
recommendations, and monetary impact.

The 2006 audit concluded the Postal Service officials made significant strides in
reducing costs associated with delivery vehicle expenditures over the previous 3 years.
However, delivery management officials could further improve the use of vehicles that
support delivery operations. Management agreed with our findings, recommendations,
and monetary impact.




                                                   9
Vehicle Maintenance Facilities – Scheduled Maintenance Service                           DR-AR-08-010
 in the Pacific Area


              APPENDIX B: SCHEDULED MAINTENANCE PERFORMANCE

The Pacific Area vehicle maintenance process ensured that nearly all vehicles received
required and timely SPMs. Five units completed all of their SPMs. The other three
ranged between 97 and 99 percent5 of the required SPMs. (See Table 2.)

              Table 2. Scheduled Preventive Maintenance Performed in FY 2007

                                          Required                         Percentage
                        VMF Location     in FY 2007 Performed              Performed
                       Fresno                  1,771        1,771                 100
                       Long Beach              3,233        3,123                  97
                                   6
                       Los Angeles       Not Verified Not Verified                N/A
                       Oakland                 7,202        7,202                 100
                       Sacramento              5,616        5,603                  99
                       San Bernardino          4,150        4,150                 100
                       San Diego               6,271        6,271                 100
                       San Jose                4,535        4,491                  99
                       Santa Ana               5,507        5,507                 100
                       Santa Barbara7    Not Verified Not Verified                N/A
                       Total/Average          38,285       38,118                  99
                      Source: VMAS and OIG optimization model

VMF management attributed the few missing or past due SPMs to:

    o Insufficient Staff. Management stated that insufficient staffing prevented
      completion of all SPMs. Some vehicle maintenance personnel were on extended
      sick leave. Although the OIG’s analysis using the “Rule of Thumb” and SPMs
      per technician showed a need for additional staff, the optimization model did not
      support an overall need for additional technicians. The difference in staffing
      requirements from the OIG optimization model analysis was the result of using
      technicians for maintenance instead of shuttling and using LCVs for scheduled
      maintenance for about 329 vehicles located significant distances from the VMF.

    o Recording and Tracking Maintenance Activities. VMF officials completed some
      SPMs after the end of the fiscal year because policy allows a 2-week grace
      period after the due date. Although Postal Service policy does not consider
      SPMs performed within 2 weeks of the due date late, these SPMs were not
      recorded in WebEIS as vehicles in arrears. Therefore, the potential exists to
      continually carry over SPMs every month. Further, even though we determined
      the sampled VMFs performed nearly all of their SPMs, the process of verifying
5
  The San Bernardino and San Diego VMF supervisors stated SPMs were performed under 2 hours on vehicles with
very limited usage. Management stated it would not be cost effective to perform an SPM in 2 or 2.5 hours when it
was not necessary.
6
  We excluded this VMF from our sample because of VMF miscoding in VMAS. We could not accurately identify LCV
expenditures for SPMs.
7
  We excluded this VMF from our sample because we could not determine whether SPMs were completed by the
VMF or the LCV.


                                                      10
Vehicle Maintenance Facilities – Scheduled Maintenance Service                            DR-AR-08-010
 in the Pacific Area


        the number of scheduled maintenances performed proved difficult.8 For two
        VMFs initially included in our sample, but later excluded, we were unable to
        substantiate the number of required and performed SPMs during 2007.
        However, we have no reason to believe the exclusion alters the Pacific Area
        percentage of maintenance performed.

Without completing all required scheduled maintenance and repairs, the Postal Service
vehicles are vulnerable to breakdowns, which could adversely impact timely mail
delivery and potentially impact the well-being of employees and the public. Since the
Postal Service does not plan to begin replacing its current fleet of long life vehicles
(vehicles that are more than 20 years old) until 2018, we believe it is critical that these
vehicles receive the required maintenance.




8
 The issue of more easily tracking and monitoring scheduled maintenance requires action by Postal Service
Headquarters will be addressed in a national capping report.


                                                       11
Vehicle Maintenance Facilities – Scheduled Maintenance Service                               DR-AR-08-010
 in the Pacific Area


                         APPENDIX C: OPTIMUM USE OF RESOURCES

The Pacific Area did not always optimize its resources to ensure that maintenance and
repair funds were expended in the most efficient and cost effective manner. We found
maintenance officials sometimes used LCVs for vehicle maintenance and repairs when
using VMF resources would have been more efficient and economical. Likewise, VMF
resources were sometimes used when LCVs would have been more efficient and
economical. Additionally, VMF officials used maintenance employees to shuttle
vehicles between facilities for maintenance and repairs when more economical means
existed.

Several factors contributed to this condition.

     o Optimum Use of VMF and Commercial Resources. The vehicle maintenance
       plan did not consider an optimum combination of both VMF and commercial
       resources.9 Generally, it is more cost effective10 for the VMF to perform SPMs
       on vehicles stationed within 50 miles of the VPO. Based on distance from the
       VMF, shuttling costs, and VMF and commercial vendor labor costs, we
       determined that 1,537 SPMs should have been performed at the other site -
       either the VMF or the commercial facility. (See Table 3.)

                      Table 3. VMF and Local Commercial Vendor Resources
                                                                     SPMs Performed          Total SPMs That
                            FY 2007 SPMs                              Inefficiently at       Could Have Been
                            Performed by                              Oppostite Site          More Optimally
                                                                                              Performed by
                                      Local        Total SPMs                   Local         Either VMF or
      VMF Location        VMF        Vendors       Performed         VMF       Vendors        Local Vendors
     Fresno                1,771               0             1,771         0         90                     90
     Long Beach            3,123               0             3,123         0         44                     44
     Oakland               7,202               0             7,202         0             8                    8
     Sacramento            5,602               1             5,603         0             2                    2
     San Bernardino        4,009           141               4,150      77           64                     141
     San Diego             4,469         1,802               6,271    803           449                 1,252
     San Jose              4,491               0             4,491         0             0                    0
     Santa Ana             5,507               0             5,507         0             0                    0
     Total                                                                                                    11
                          36,174         1,944              38,118    880           657               1,537
    Source: VMAS data and OIG optimization model

     o Vehicle Shuttling. In most cases, we found that the Postal Service’s national
       vehicle shuttle agreement or local commercial shuttling services were more cost

9
 The VMAS does not track the number of SPMs accomplished. The OIG’s efficiency and optimization model
estimated the number completed by analyzing all work orders assigned to xxxx xx (scheduled maintenance), and with
some adjustments, considered all work of at least 2 hours as a SPM. We used 2 hours because Postal Service’s
policy requires between 1.5 and 2.5 hours of inspection prior to any repair work. We confirmed the number of SPMs
with VMF managers during the audit.
10
   Cost effectiveness is based on the overhead costs to transport vehicles between the VMF and the VPO using a
vehicle maintenance technician or other VMF personnel.
11
   Eighty-one percent of the 1,537 SPMs were attributed to one VMF.


                                                       12
            Vehicle Maintenance Facilities – Scheduled Maintenance Service                                   DR-AR-08-010
             in the Pacific Area


                     effective than using VMF maintenance technicians. The Pacific Area used
                     28,632 workhours for vehicle maintenance technicians to shuttle vehicles rather
                     than perform maintenance. The shuttle workhours related to SPM were
                     equivalent to about 16 vehicle maintenance technician positions at a cost of
                     $1,232,320.12 (See Table 4.)

                         Table 4. Vehicle Maintenance Technician Hours Used for Shuttling
                                                                                                                                    Cost of
                        Number of         Estimated                         Percentage of        Shuttle                            Shuttle
                         Vehicle         Maintenance           Total            Direct         Hours Used         Equivalent      Hours Used
                       Maintenance          Hours             Shuttle       Maintenance            for           Maintenance          by
                       Technicians         Available        Hours Used       Hours Used         Scheduled        Technician       Maintenance
   VMF Location         Assigned         (Scheduled )       in FY 2007      for Shuttling      Maintenance        Positions       Technicians
 Fresno                          12             16,838            3,509                 21            1,919                  1         $82,594
 Long Beach                        22            30,870            7,366                 24             3,934                 2         169,319
 Oakland                           51            71,563            5,373                  8             2,724                 3         117,241
 Sacramento                        46            64,547           12,694                 20             2,531                 1         108,934
 San Bernardino                    33            46,306           11,518                 25             7,636                 4         328,653
 San Diego                         38            53,322            6,832                 13              587                  0          25,264
 San Jose                          29            40,693           11,011                 27             3,826                 2         164,671
 Santa Ana                         47            65,950            9,613                 15             5,475                 3         235,644
 Total/Averages                   278           390,089           67,916                 18           28,632                16        $1,232,320
Source: VMAS and OIG optimization model

                 o Area Oversight. The Postal Service’s organizational structure was not conducive
                   to effective management of vehicle maintenance. Area Vehicle Maintenance
                   Program Analysts (VMPAs) are responsible for working directly with VMF officials
                   to manage the vehicle maintenance program. However, each VMPA is aligned
                   under the plant maintenance manager, who has no direct line of authority to
                   district vehicle maintenance functions or individual VMF operations.13

            We found the Pacific Area VMF managers and VMPAs to be proactive in managing
            vehicle maintenance and receptive to the intent of the audit and recommendations.
            Management officials did express concern that:

                 •   VMFs may not always be able to find cost effective shuttle alternatives. They
                     also raised the possibility of potential union concerns with using contractors
                     instead of VMF personnel.

                 •   National shuttle contract costs are rising due to the high cost of fuel.



            12
               This estimate of equivalent technician positions applies only to the hours used for shuttling. It does not relate to
            any actual reductions discussed in this report.
            13
               During our audit, the Pacific Area was transitioning from a pilot program called “Stovepipe.” The program
            geographically placed knowledgeable vehicle maintenance personnel in the area management structure to provide
            direct guidance to VMF managers. The program was officially started in September 2002 but was dissolved in
            January 2008 by Postal Service Headquarters.


                                                                       13
Vehicle Maintenance Facilities – Scheduled Maintenance Service          DR-AR-08-010
 in the Pacific Area


    •   The quality of maintenance performed by LCVs is often not at the same level of
        the VMFs, thus resulting in rework and safety concerns.

    •   The Pacific Area’s ability to capture cost savings could be compromised because
        the Postal Service had recently restricted their ability to fill existing vacancies
        caused by attrition and reduced their ability to use overtime.

The OIG acknowledges the issues management raised and the financial challenges
faced by the Postal Service that affect VMF operations. Notwithstanding these
concerns and challenges, in our opinion, opportunities exist to become more efficient
and save money. Specifically, the Pacific Area could lower overall VMF operating costs
by $2.1 million annually. These efficiencies, when projected for the 18 VMFs in the
Pacific Area over a 10-year period, could save $21,580,236. (See Appendix D.)




                                                   14
Vehicle Maintenance Facilities – Scheduled Maintenance Service                                 DR-AR-08-010
 in the Pacific Area




                   APPENDIX D: OIG CALCULATION OF COST SAVINGS

The OIG identified $21,580,236 in funds put to better use over the next 10 years for the
Pacific Area’s 18 VMFs.14

                                       Savings in Dollars
                                               Average     Estimated
                                               Annual     Savings Over
                          VMF Location         Savings      10 Years
                        Fresno                    $12,359      $123,586
                        Long Beach                 46,948       469,478
                        Oakland                   150,392     1,503,924
                        Sacramento                170,297     1,702,967
                        San Bernardino            198,089     1,980,890
                        San Diego                 158,816     1,588,157
                        San Jose                  145,924     1,459,236
                        Santa Ana                  76,298       762,978
                        Totals                   $959,123    $9,591,216
                        Projected Potential Savings Over
                        18 VMFs in Pacific Area             $21,580,236
                       Source: OIG optimization model

We calculated the savings based on the following methodology.

     •   Each VMF has a list of VPOs for which it is responsible for vehicle maintenance.
         Each VPO has a number of Postal Service vehicles that require regular SPM.
         The number of SPMs that a vehicle requires is determined at the beginning of the
         year based on the demands that the assigned route places on the vehicle. All
         SPMs for a given year must be performed on each vehicle; however, the VMF
         may delegate some of this workload to commercial vendors that are near the
         VPOs. We refer to this contract labor as LCVs.

     •   The purpose of this audit was to determine the optimal use of the SPMs to be
         performed by the VMFs and LCVs. We took into consideration the mechanic
         labor costs and all relevant shuttling costs. As with the SPMs, VMFs may
         contract out shuttling. The Postal Service has a national vehicle shuttle
         agreement; the OIG used that rate in the analysis. However, VMFs can use a
         less expensive local shuttle contractor if one can be identified.



14
  At a 95 percent confidence level, the OIG estimates the 10-year savings amount to range between $14.1 and $28.9
million. We used the mid-point estimate of $21.5 million in our statistical projection.




                                                       15
Vehicle Maintenance Facilities – Scheduled Maintenance Service                                DR-AR-08-010
 in the Pacific Area




     •   We developed the optimization model to find a least-cost solution based on
         performing all required SPMs. We used the VMFs’ FY 2007 operational data.
         Any SPMs not currently performed by VMFs were considered to be completed by
         LCVs.15 We restricted the scope of this audit to maintenance technicians’ time
         spent performing scheduled maintenance and shuttling activities. This analysis
         draws no conclusions regarding the time dedicated to other activities or how
         maintenance technicians used the remainder of their time.

     •   The VMAS does not track the number of SPMs accomplished for each vehicle.
         The OIG’s efficiency and optimization model estimated the number of SPMs
         completed by analyzing all work orders assigned to code 22 (scheduled
         maintenance), and with adjustments (i.e., new vehicles and commercial repairs,
         etc.) considered all work lasting at least 2 hours16 as an SPM. We explained the
         process to the VMF managers and then confirmed/adjusted the number of SPMs
         required and completed.

     •   We optimized the VMFs’ scheduled maintenance and shuttling time for each of
         the next 10 years, assuming that the Postal Service would reduce the labor
         contingent by 4.13 percent per year, the historical Pacific Area attrition rate.17
         This optimization gives the least-cost solution and specifies how the SPMs at
         each VPO should be distributed between the VMFs and the LCVs. The model
         shows which shuttling jobs should be done by both the VMFs and by contractors.
         The model analyzes all costs and hours (for SPMs at VMFs, SPMs at LCVs,
         VMF shuttling, and contract shuttling). The model also shows the total SPMs
         currently performed by the VMF and local vendors to the total amount that could
         be more optimally performed by VMFs and LCVs.

     •   In these optimizations, we assumed that each VMF would operate at a standard
         efficiency. We used the sampled eight VMFs’ average time per SPM as a
         standard for the time it takes to complete a SPM in that area. If a particular VMF
         performed better than this standard, we assumed that the VMF maintained its
         current efficiency.

     •   We identified cost savings if the VMF was not efficiently using its shuttling time.
         We compared the VMF's total shuttling time to the aggregate time that should be
         needed to perform all of the VMF’s shuttling, assuming that two vehicles were
15
   We obtained the current number of SPMs performed by VMFs and LCVs from VMAS databases located at the
VMFs and xxxxxxxxxxx xx xxx xxxxxxxxx xxxxxxxx xx Xxx Xxxxx Xxxxxxxxxxx Xxxxxxxxxx xxx Xxxxxxxxxx Xxxxxxx
Xxxxxx. Because a VMF may not perform all its required SPMs, we assumed a LCV would perform the remaining
SPMs. In addition, in some cases, a VMF performed more SPMs than required at a VPO. We credited the VMFs
with these additional SPMs and determined a comparable solution by reassigning these SPMs to the closest location
with a shortfall. We accomplished this in part by assuming that the baseline case kept the scheduled maintenance
hours and shuttling hours constant at current levels.
16
   We used 2 hours because of the Postal Service’s requirement for a “Type A” and “Type B” maintenance inspection
prior to any repair work. These inspections require between 1.5 and 2.5 hours.
17
   The historical attrition rate for Pacific Area maintenance technicians was determined by averaging the past 7 years
(2001 - 2007) of data obtained from the WebEIS.


                                                          16
Vehicle Maintenance Facilities – Scheduled Maintenance Service                           DR-AR-08-010
 in the Pacific Area




           transported on each trip. The cost of any excess time was time that could have
           been saved, although the actual amount of time that could be saved was likely to
           be higher because the VMFs probably did not perform all of their own shuttling.

       •   For our model, we reviewed the minimum and maximum overtime hours per
           week from what the VMFs used during the first 6 months of FY 2008 determined
           from the Enterprise Data Warehouse system. The number of hours of straight
           time worked for each mechanic per year is 1,754.18

       •   Based on the above analyses, assumptions, and constraints, we estimated that
           the Pacific Area could increase overall VMF efficiency and reduce costs by using
           local commercial resources for shuttling and SPM requirements when
           appropriate. This increased efficiency, when projected over the Pacific Area’s
           universe of 18 VMFs, will reduce costs by approximately $2.1 million annually, or
           over $21 million for a 10-year period.




18
     Source: Finance Memorandum dated March 6, 2006, “Workhour Rates for Fiscal Years 2005 - 2007.”


                                                       17
Vehicle Maintenance Facilities – Scheduled Maintenance Service              DR-AR-08-010
 in the Pacific Area


                            APPENDIX E: DISTRICTS AND
                     VEHICLE MAINTENANCE FACILITIES REVIEWED

                                 District                       VMF
                            Bay Valley                     Oakland
                                                           San Jose

                            Sacramento                     Fresno
                                                           Sacramento

                            San Diego                      San Bernardino
                                                           San Diego

                            Santa Ana                      Long Beach
                                                           Santa Ana
                       Source: OIG Experts Sample




                                                    18
Vehicle Maintenance Facilities – Scheduled Maintenance Service               DR-AR-08-010
 in the Pacific Area

                                                                               19
                    APPENDIX F: SCHEDULED MAINTENANCE PROCESS




19
     Source: Postal Service Handbook PO-701, Fleet Management, March 1991.


                                                       19
Vehicle Maintenance Facilities – Scheduled Maintenance Service   DR-AR-08-010
 in the Pacific Area


                         APPENDIX G: MANAGEMENT COMMENTS




                                                   20
Vehicle Maintenance Facilities – Scheduled Maintenance Service   DR-AR-08-010
 in the Pacific Area




                                                   21
Vehicle Maintenance Facilities – Scheduled Maintenance Service   DR-AR-08-010
 in the Pacific Area




                                                   22
